<html>
<title> - NEW YORK MAYOR RUDOLPH GIULIANI: WINNING THE WAR ON DRUGS AND CRIME</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




  NEW YORK MAYOR RUDOLPH GIULIANI: WINNING THE WAR ON DRUGS AND CRIME

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 24, 1999

                               __________

                           Serial No. 106-75

                               __________

       Printed for the use of the Committee on Government Reform


     Available via the World Wide Web: http://www.house.gov/reform

                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE
62-235                     WASHINGTON : 2001



                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                GARY A. CONDIT, California
THOMAS M. DAVIS, Virginia            PATSY T. MINK, Hawaii
DAVID M. McINTOSH, Indiana           CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELEANOR HOLMES NORTON, Washington, 
JOE SCARBOROUGH, Florida                 DC
STEVEN C. LaTOURETTE, Ohio           CHAKA FATTAH, Pennsylvania
MARSHALL ``MARK'' SANFORD, South     ELIJAH E. CUMMINGS, Maryland
    Carolina                         DENNIS J. KUCINICH, Ohio
BOB BARR, Georgia                    ROD R. BLAGOJEVICH, Illinois
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
ASA HUTCHINSON, Arkansas             JOHN F. TIERNEY, Massachusetts
LEE TERRY, Nebraska                  JIM TURNER, Texas
JUDY BIGGERT, Illinois               THOMAS H. ALLEN, Maine
GREG WALDEN, Oregon                  HAROLD E. FORD, Jr., Tennessee
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
JOHN T. DOOLITTLE, California            (Independent)
HELEN CHENOWETH, Idaho


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                    JOHN L. MICA, Florida, Chairman
BOB BARR, Georgia                    PATSY T. MINK, Hawaii
BENJAMIN A. GILMAN, New York         EDOLPHUS TOWNS, New York
CHRISTOPHER SHAYS, Connecticut       ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         DENNIS J. KUCINICH, Ohio
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
DOUG OSE, California

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          Robert B. Charles, Staff Director and Chief Counsel
              Margaret Hemenway, Professional Staff Member
                          Amy Davenport, Clerk
                    Cherri Branson, Minority Counsel
                    Micheal Yeager, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 24, 1999................................     1
Statement of:
    Giuliani, Rudolph, mayor, city of New York...................    11
Letters, statements, etc., submitted for the record by:
    Giuliani, Rudolph, mayor, city of New York:
        Charts concerning crime rates................... 13, 22, 24, 28
        Prepared statement of....................................    32
    Meeks, Hon. Gregory W., a Representative in Congress from the 
      State of New York, charts concerning crime rates.......... 44, 48
    Mink, Hon. Patsy T., a Representative in Congress from the 
      State of Hawaii, FBI data chart............................    52

 
  NEW YORK MAYOR RUDOLPH GIULIANI: WINNING THE WAR ON DRUGS AND CRIME

                              ----------                              


                      WEDNESDAY, FEBRUARY 24, 1999

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9 a.m., in 
room 2247, Rayburn House Office Building, John L. Mica 
(chairman of the subcommittee) presiding.
    Present: Representatives Mink, Gilman, Towns, Barr, 
Hutchinson, Ose, and Kucinich.
    Also present: Representative Meeks.
    Staff present: Robert B. Charles, staff director and chief 
counsel; Margaret Hemenway, professional staff member; Amy 
Davenport, clerk; Cherri Branson and Michael Yeager, minority 
counsels; Ellen Rayner, minority chief clerk; and Courtney 
Cook, minority staff assistant.
    Mr. Mica. I would like to call this meeting of the House 
Subcommittee on Criminal Justice, Drug Policy, and Human 
Resources to order before these witnesses. I would like to go 
ahead and get started.
    We have several opening statements. This is the first 
Washington hearing of our subcommittee. I am pleased to welcome 
everyone this morning as we begin our oversight and 
investigation of problems relating to criminal justice, our 
national drug policy, and human resources.
    In just a few minutes, we will be joined by Mayor Giuliani 
of New York City. I am going to start with my opening 
statement, then I will yield to our ranking member, Mrs. Mink, 
and other Members for opening statements so we can proceed in 
an expeditious fashion.
    Again, good morning and welcome. Our subcommittee began its 
work several weeks ago with its first hearing in my district in 
central Florida.
    The focus of that field hearing was to review the situation 
relating to illegal narcotics and the epidemic of drug overdose 
deaths; particularly those that have ravaged the young people 
in central Florida.
    Heroin of a very pure quality is destroying the lives of 
our young people. In central Florida, drug overdoses well-
exceed homicide deaths. Across our Nation, heroin use among our 
youth has risen 875 percent among our teenagers from 1992 to 
1998. With heroin and illegal narcotics comes crime.
    Two of the primary charges of our subcommittee are to 
conduct congressional oversight relating to the problem of 
crime and illegal drugs.
    In my district and across the Nation, illicit drugs and 
criminal acts are crippling our families, our neighborhoods, 
and our schools. Our jails and prisons now hold nearly 2 
million Americans.
    It is estimated that between 60 and 70 percent of all those 
behind bars are in jail because of drug or substance-related 
crimes. The cost to our society, in dollars, totals billions 
and the loss in productive lives cannot be estimated.
    Over 14,200 Americans, mostly young, died last year from 
drug-related deaths. Drugs, crime, and death are inevitably 
linked.
    Our subcommittee will not only conduct oversight and 
investigate failures of government programs, we are also 
interested in reviewing successful efforts by our State and 
local officials in tackling crime and the problems surrounding 
illegal narcotics.
    Certainly the New York City turn-around, led by Mayor 
Giuliani, must be one of the most successful efforts achieved 
by any chief executive of any major American metropolitan area. 
Let me just, if I could, give you a few statistics about that 
turn-around.
    This is New York City. Total major felony crimes fell by 51 
percent from calendar year 1993 to calendar year 1998, and 11 
percent in the last year, 1997 to 1998.
    Murder and non-negligent manslaughter, 1993 to 1998, 
declined by 67 percent, and by 18 percent in the last calendar 
year.
    Total felony and misdemeanor narcotics citywide, 1993 to 
1998, went from 70,000 to 120,000. The total number of crime 
complaints reported to the New York City Police Department for 
11 major felonies in calendar year 1998 declined by 11 percent 
compared to 1997, and by 51 percent compared to 1993.
    Since Mayor Giuliani took office in 1994, the most 
significant decrease in crime complaints is reported in murder, 
which declined 18 percent in the last calendar year, and by 67 
percent from 1993 to 1998; astounding figures.
    Calendar year 1998 marked the lowest number of murders in 
New York City in 36 years. Let me give you a couple of other 
statistics from some of the areas affected.
    In southeast Queens, major felony crime was reduced by 21 
percent with 1,645 arrests and 89 search warrants executed. In 
Staten Island and central Harlem, the central Harlem initiative 
resulted in 2,887 drug arrests; 44 search warrants; a reduction 
of major felony crime in the 28th and 32nd Precincts by 20 
percent.
    In Staten Island, there were 552 arrests, 38 search 
warrants executed, and major felony crime was reduced by 12 
percent. We will hear more from the mayor on this.
    New anti-drug initiatives will be phased in, in east 
Harlem, southern Brooklyn, northern Queens, and central Bronx.
    Total narcotics arrests increased 17 percent in 1998 
compared to calendar year 1997, and 90 percent compared to 
1993.
    Today, we will have a great opportunity to hear from Mayor 
Rudy Giuliani as to how he achieved this incredible record in 
our Nation's largest, and probably most famous, metropolitan 
area.
    The statistics in saving lives from murder is so dramatic 
in New York City that it has actually helped to impact our 
national murder statistics. We have seen a decrease in crime in 
those national statistics as a result of his efforts.
    Thanks to Mayor Rudy Giuliani's efforts, I have calculated 
based on what the murder rate was before he took office that 
3,500 people or more are alive today who would have otherwise 
been fatal statistics.
    This morning, we will hear from Mayor Rudy Giuliani. 
Tomorrow morning, our subcommittee will hear from General 
McCaffrey who will present to this subcommittee the national 
drug control strategy for the administration.
    Next week, we will hear from our DEA Administrator, Tom 
Constantine. The week after, we are hoping to announce the date 
that Mrs. Mink, our ranking member, will help put together a 
rather comprehensive hearing on education, prevention, and drug 
treatment programs.
    So, that is the schedule that our subcommittee has. Again, 
I welcome you this morning. I am delighted to see some of our 
Members present this morning. I would like to, at this time, 
yield to our ranking member, Mrs. Mink, for her opening 
statement.
    Mrs. Mink. Thank you, Mr. Chairman.
    My remarks basically are addressed to the mayor. In his 
absence, I would like to extend my appreciation to the Chair of 
this subcommittee for his very comprehensive and energetic 
leadership in engaging members of this subcommittee in a recent 
tour of Central and South America where, for the first time, at 
least for me on this subcommittee and in Congress, I had the 
opportunity to engage the very difficult questions of source, 
traffic, and demand issues that face this Nation. Mayor 
Giuliani of New York City undoubtedly has the Nation's most 
impressive record with reference to not only crime control, but 
his overall policies with reference to drug control.
    He presides over a city government that is very complex and 
has always been, in its long history, a crime challenged city; 
probably the most in our country. We have witnessed some very 
dramatic improvements in public safety over the last two 
decades.
    According to the data published in the FBI's Uniform Crime 
Reports, violent and property crime declined 6.7 percent in New 
York City between 1996 and 1997. Crime across the United States 
also dropped during this same period, but only by 3.2 percent.
    New York's success is not nearly a short-term trend. Crime 
began to drop sharply and steadily beginning in 1990, during 
the administration of Mayor Dinkins. It has continued a steady 
decline during Mayor Giuliani's administration.
    Probably many reasons account for this. Rapid economic 
growth and job creation have undoubtedly played a role, but so 
has his well-publicized focus on reducing quality of life 
crime.
    It appears to be getting results. That is really what all 
of us are after. As you may know, this subcommittee has 
jurisdiction over the drug control policy. We play a role in 
developing our strategy. So we are particularly interested in 
learning lessons of success, as well as lessons of failure that 
apply to national policy.
    One positive reason evident from the New York City 
experience is the importance of a strong partnership between 
the Federal, State, and local governments.
    Just as an example, last year Mayor Giuliani joined with 
President Clinton in announcing $120 million in Federal aid 
grants, all part of the COPS initiative that helped to fund 
1,600 new police officers in New York City.
    Since the inception of the COPS Program, funding to New 
York City has totaled more than $237 million. In addition to 
that, New York received millions of dollars in grant aid from 
the Justice Department, including funds for drug courts, the 
Brooklyn Treatment Court, juvenile mentoring, local law 
enforcement block grants, and many, many others.
    Another positive lesson is the importance of a 
comprehensive approach to fighting drugs. New York City's 
program focuses not only on law enforcement in criminal 
justice, but also on drug treatment, addiction, and education.
    The city's strategy recognizes, as does our national drug 
control strategy, that we need a comprehensive approach if we 
are to begin to defeat this drug trafficking and consumption in 
our country. I welcome Mayor Giuliani and thank you very much, 
Mr. Chairman.
    Mr. Mica. I thank the ranking member for her opening 
statement. I would like to now yield to the distinguished 
gentleman from New York and our leader in international 
relations, Mr. Gilman.
    Mr. Gilman. Thank you, Mr. Chairman.
    I am pleased we will be welcoming the distinguished mayor 
of America's largest city, New York, to our hearing. It speaks 
well of our new distinguished chairman of the Criminal Justice, 
Drug Policy, and Human Resources Subcommittee, Mr. Mica, who is 
starting off this subcommittee's examination of these highly 
important crime and drug issues with Mayor Giuliani as our lead 
witness.
    Our distinguished mayor of New York has been effectively 
fighting these related evils, both as a U.S. Attorney in the 
southern district of New York, and now as mayor of the biggest 
city in our Nation.
    The experiences of the city of New York under Mayor 
Giuliani in these three important areas have a number of 
lessons for our Federal Government; lessons to hear, to 
observe, and to pay close attention to, and to utilize the 
benefits of that experience.
    The mayor's message and crime fighting success, even the 
big and all-knowing Federal Government, can learn a few things 
from today and improve the lives of our citizens throughout the 
Nation, and especially our young people.
    One of the most serious questions of the current Federal 
administration's performance on its policy in fighting illegal 
drugs is the over-emphasis on the demand side; especially 
treatment as the cure-all.
    The current Federal administration announced from its very 
onset its intention of focusing more and more attention and 
resources on treatment and on rehabilitation of hard-core 
users.
    It began by declaring that there was no war on drugs, which 
we needed to wage. Its policy was largely based on treating the 
wounded by diverting the means and resources to accomplish that 
one-sided demand emphasis approach from other vital areas such 
as interdiction and--efforts, eradication, and enforcement.
    I remain concerned about this initiative from its 
inception. The plan to cut back in the areas of interdiction 
and eradication at the source of these drugs abroad was a clear 
and mistaken signal that narcotics was no longer a top foreign 
policy issue for this administration.
    In a 1994 visit to Washington, Mayor Giuliani spoke to the 
Washington Times about the importance of placing narcotics at 
the top of our U.S. foreign policy agenda. If anyone does, Mr. 
Giuliani knows from direct experience as a U.S. Attorney in New 
York that what is needed to effectively prosecute the 
international war on narcotics and crime is certainly not just 
a demand approach.
    He also knows as the mayor of the Nation's largest city, 
the impact of illicit drugs from abroad on crime rates, on 
health care costs, on safety of our streets, and the very 
viability of our great cities.
    Back in 1994, Mayor Giuliani said that local government may 
have a bigger role to play in combating narcotics, but only the 
Federal Government can provide overall guidance. To do so 
properly, it has to make the drug problem a matter of foreign 
policy.
    It was sound advice then and it is still sound advice 
today. The Federal administration failed to adhere to that sage 
advice. It let its guard down. It cut back in source nation and 
interdiction efforts.
    The drug policy was, and has never been, at the top of our 
foreign policy since then. A number of Presidents have 
indicated that drug use and drug trafficking are a national 
security risk; a risk that must be attended to.
    The costly damage tag is already on that foreign policy 
failure. Let me just use a hard drug like heroin as an example 
of what has occurred. It is a particularly important drug in 
the New York region, as we all know, and throughout the Nation.
    While the administration cut back abroad, as well as on 
interdiction, it mistakenly took its eye off the ball and 
turned its back on source nations like Colombia.
    Today, the heroin marketed in our New York region, once 
dominated from Asia, is now being dominated from nearby 
Colombia; one of our neighbors in the Western Hemisphere.
    In addition, the ever-pure, cheaper, readily available 
Colombian heroin--that supply has lead to a startling 875 
percent increase, an 875 percent increase, for the first time 
in teen heroin use; the ages between 12 and 17.
    Supply can help create and sustain an increased drug 
demand. Today, Colombia heroin dominates the eastern market of 
our Nation. It is purer. It is cheaper and more deadly than 
ever.
    While the administration scrambles belatedly today to 
provide high performance helicopters, which I was pleased to 
work on, for Colombia for the excellent anti-narcotics police 
for opium eradication in the Andean region.
    Incidently, the police force has lost 4,000 courageous 
officers in the last few years in their war against drugs. I 
hope that we are not too late for the new heroin crisis, and 
that we can avoid costly errors like that in the future.
    Today's session with Mayor Giuliani hopefully will start 
the learning process with the 106th Congress; particularly for 
the last 3 years, the current administration. Just yesterday, 
at the request of our chairman, we met with Pino Arlacchi, the 
director of the United Nations Drug Agency.
    He reminded us that some say we have lost the drug war. He 
says the war has not yet begun. He is undertaking some major 
steps in getting an intensive drug substitution, crime 
substitution program that hopefully will lead to eventually 
eradicate those sources of both opium and heroin in Latin 
America and in the Asian area.
    So Mr. Chairman, I, again, want to commend you for bringing 
about this series of hearings that we are about to start today 
to focus attention once again on the high priority that we wish 
placed on this issue of drug trafficking and drug use on our 
agenda.
    I look forward to working with you. Thank you for moving 
forward in this area.
    Mr. Mica. I thank the gentleman from New York.
    He has been a long-time fighter in the war against drugs 
and helping us on the international scene so ably as Chair of 
our International Relations Committee.
    I guess our witness is here. Let us defer for just a 
second. I would like to welcome Mr. Giuliani. Mayor, you should 
have been here a couple of minutes ago.
    They were all singing your praises from both sides of the 
aisle. We will provide you with a tape of some of those 
comments, maybe for your future view. We are in the middle of 
opening statements, Mr. Mayor. We are going to proceed now. We 
have just heard from Mr. Gilman. We have heard from our ranking 
member, Mrs. Mink.
    Now, I am delighted to yield to a gentleman who I had the 
privilege of serving under when he chaired so ably a 
subcommittee of Congress when I was a freshman; a gentleman 
also from New York, Mr. Towns. You are recognized, sir.
    Mr. Towns. Thank you, Mr. Chairman.
    Let me say, I look forward to working with you in dealing 
with this very, very serious issue. I think that your timing 
could not be better to get going on this very early on in the 
106th Congress.
    I also would like to welcome the mayor of the city of New 
York who also has been on the forefront in terms of fighting 
this problem as well.
    We must be realistic enough to know that we cannot put 
everyone in jail. In a 1998 report, the Center on Addiction and 
Substance Abuse found that 80 percent of the money spent to 
build and operate prisons in the United States was spent to 
house substance involved criminals.
    We must, and I say we must, I emphasize that, actively 
pursue treatment options that give people a chance to break the 
hold of addiction and start new lives. The Center on Addiction 
estimates that it would take $6,500 per year to treat an inmate 
for substance abuse and provide vocational training.
    This is a small additional amount to pay, given the average 
cost of $20,000 per inmate for incarceration; incarceration 
without treatment and training. It is estimated that every 
inmate that returns successfully to society saves $68,000 in 
reduced crime.
    Therefore, it is cost-effective and efficient. We must be 
realistic enough to be concerned about the effects of drug 
abuse on pregnant women. I believe that each of us share the 
concern that the youngest victims of drug abuse may be those 
children who are born to drug-addicted mothers.
    I worry that a reporting requirement for fetal drug 
exposure may have a significant impact on women and their 
children. If these reports, without additional evidence, can be 
used to place children in foster care, women will forego 
prenatal care or the followup services they need to hold onto 
their children.
    The compassionate response is not reporting them, but 
treating them. I believe that our response to the drug issue 
must be realistic, cost-effective, and compassionate. I believe 
our mayor shares those core values.
    On that note, Mr. Chairman, I would like to welcome the 
mayor of the greatest city on Earth, New York, NY.
    Thank you, Mr. Chairman. I yield back to you.
    Mr. Mica. Thank you, Mr. Towns.
    We do not allow any commercials on this subcommittee.
    I am pleased to recognize now the vice chairman of our new 
subcommittee, the gentleman from Georgia who needs no 
introduction, Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman.
    It is an honor to have you here today, Mr. Giuliani. I look 
forward to both hearing your testimony and hearing some of the 
responses. I know there will be some fairly specific and 
probably wide ranging questions for you.
    I have some based on some of the material that you have 
presented and some of what I have read in the newspapers over 
the last several years about the remarkable success, under your 
leadership, New York City, has seen in its war not only against 
mind-altering drugs, but crime in general.
    Of course, you understand perhaps better than anybody the 
interrelationship between those two factors. Even though your 
testimony that you have provided us, your 8 pages here, is but 
a summary and is very detailed.
    I really do think that it personifies what I have always 
considered the four C's of an effective anti-drug policy. It 
represents a coordinated approach, a comprehensive approach, a 
consistent approach, and a constant approach. Those are indeed, 
as you know, certainly from your years with the Department of 
Justice and as mayor. Any successful program attacking a 
problem as pervasive as mind-altering drug usage in our 
communities has to contain at least those four elements.
    During the work that I have been engaged in over the last 
few years, Mr. Mayor, up here in the Congress, we have done a 
lot of work of course not only on domestic drug policy, but 
international drug policy.
    I have had the opportunity to travel to both communities 
here in this country, as well as those abroad. One of the great 
heros of the anti-drug movement in the international arena is 
General Jose Serrano, the head of the Colombian National Police 
[CNP].
    He is really almost a mythical figure in Colombia, as well 
as the annals of anti-drug policy because of his work over the 
last several years. Chairman Gilman alluded to it before you 
came in here.
    He also, I think, has a deep understanding of both the 
societal problems, as well as the law enforcement problems of 
attacking something as insidious as mind-altering drugs.
    The gains that he has made, almost single handedly, in 
Colombia over the last several years have inspired almost 
mythical loyalty because of his tremendous honesty and 
integrity, the consistency of his approach, and his deep regard 
for the citizens of his country who have been plagued by 
tremendous drug problems over the last several years that, in 
some ways, even make ours pale in comparison. Their very 
society has been threatened by it.
    Based on your work, both as an official with our Department 
of Justice, as a U.S. Attorney, and now most relevant today 
what you will be speaking about in your experience as mayor.
    I would place you certainly up there as one of the true 
heroes of the anti-drug movement; not only for this country, 
but for the world. In setting the standards that you have and 
achieving the results that you have, certainly not single 
handedly, but I mean you have many, many thousands of 
tremendous men and women that work with you I know.
    In setting the tone for that and in implementing this 
policy in New York, you are sending not only a signal to our 
citizens in this country that indeed the job can be done and it 
can be won.
    You are also sending a very important signal overseas. 
Those who are in countries fighting the war against mind-
altering drugs and working with us are very mindful of what 
goes on in our country.
    I know that even during my tenure as a United States 
Attorney in Atlanta back in the late 1980's and into 1990, we 
had a very serious problem because on the one hand we were 
asking Colombia to extradite drug cartel figures up here and 
they saw the problems we were having even here in our Nation's 
Capital with drug usage at the highest levels.
    There was a correlation between their willingness to 
sacrifice their citizens, sending them up here--when they would 
extradite or talk about extraditing a cartel figure up here, 
they would frequently have murders, bombings, and so forth down 
there.
    They began to wonder, several years ago, whether it was 
really worth it when they saw some indications that maybe we, 
in this country, were not really serious about fighting the war 
against mind-altering drugs.
    Largely through your efforts and through the efforts of 
some of our Governors and other mayors, but most notably 
yourself, I think you have turned that around. So, in setting 
the example that you have in New York that we are willing to 
fight comprehensively drug usage in this country and do it 
consistently, you are doing a tremendous service to our 
international effort as well.
    That then becomes the model, the example, and makes it much 
easier for us to work with foreign nations because they see 
that we are serious about fighting mind-altering drugs. 
Therefore, they are much more willing to participate with us 
and take the risks that they do in participating with us.
    So, I salute you not only for what you are doing for our 
anti-drug effort and our anti-crime problem here in this 
country, but also for the example that you have set in the 
international arena.
    I thank you and look forward to your testimony and your 
answers to the questions today.
    Mr. Mica. Thank you.
    Mr. Gilman.
    Mr. Gilman. Mr. Chairman, I just wanted to note that we 
have received word that last year in Cartegena, Colombia, one 
port city in that Nation, the drug police, under General 
Serrano, seized 18 tons of cocaine; 18 tons in one seizure, 
nearly as much as Mexico did in that same period throughout the 
entire country of Mexico.
    I think when we talk about that kind of massive seizure, it 
gives us an idea of what we are confronted with; 18 tons. We 
used to talk about 1 gram being seized as a major effort. Now 
we are talking about tons; 18 tons with a street market value 
of millions and millions of dollars.
    Thank you, Mr. Chairman.
    Mr. Mica. Thank you.
    I would like to yield now to another distinguished mayor, a 
former mayor, who is a colleague now from Ohio, Mr. Kucinich. 
You are recognized.
    Mr. Kucinich. Thank you very much, Mr. Chairman.
    I want to welcome Mayor Giuliani. Certainly, as a former 
councilman and a former mayor, I understand the day-to-day 
concerns which confront city officials when drugs become a 
problem at a community level.
    That is where you have to attack it in order to eradicate 
it. I certainly have a great deal of sympathy with the concerns 
of local officials, such as yourself, Mayor, who have to 
grapple with this on a day-to-day basis, and confront the 
realities of people who live in neighborhoods who are asking, 
``What are you going to do about this problem in my community? 
You know, we have a drug house here. We have activity taking 
place on the corner. Sometimes, it is in full view of others in 
the community. What can be done about it?''
    When you get calls like that and people come to you, I know 
that it motivates you, as all local officials, to try to find a 
way to come up with strategies to respond.
    I know that this subcommittee in reviewing the same, Mr. 
Chairman, is very interested in hearing from you with respect 
to what kind of action will effectively reduce, not only 
illegal drug usage, but more specifically, drug-related crime 
and drug trafficking.
    These are certainly among the major problems facing this 
Nation today. I have a statement that I want to submit for the 
record.
    In closing, there are just a few things that I am hopeful 
that we will be able to get into today. Unfortunately, in the 
scheme of things in this Congress, we have other committee 
meetings we have to go to. So, I may not be able to stay for 
the whole presentation, Mayor.
    I do want to ask you if, at some point, you will be able to 
address the role of economic growth in the reduction of crime. 
If we expand our economy and more people have opportunities for 
employment, is there a relationship in a reduction in crime?
    The other thing is where we have crime rates lowering, have 
we also seen a rate of recidivism declining? Are we seeing 
fewer first-time arrests as well?
    The third thing that I think might be of interest is that 
under your administration there has been a sharp attention to 
so-called quality of life offenses, such as littering, 
aggressive panhandling, loitering, and other minor offenses.
    I think I remember seeing in the New York Times a few weeks 
ago a report that said that this has led to delays in the 
criminal justice system.
    I guess the question would be, that I hope you get a chance 
to address, is there a way in which the rest of the criminal 
justice system is adequately prepared to respond to new 
strategies?
    Do they have to make adjustments down the road to be able 
to meet the demands and requirements of an Administrator such 
as yourself?
    So, I appreciate you being in front of this subcommittee. I 
certainly wish you well.
    Mr. Mica. I thank the gentleman.
    I am going to yield now to the gentleman from Arkansas, Mr. 
Hutchinson; a very skilled former prosecutor. We look forward 
to your statement.
    Mr. Hutchinson. Thank you, Mr. Chairman.
    I am delighted to be under your services on this 
subcommittee. I want to welcome the mayor. Your praises are 
sung in the lands of Arkansas. We have a great respect for the 
work that you have done.
    I am anxious to hear your testimony. So, I am going to 
yield my time and look forward to hearing some of what you have 
done and also asking further questions down the road.
    Thank you, Mayor. Thank you, Mr. Chairman.
    Mr. Mica. We have one additional Member at the dias. I 
would like to recognize a new Member to Congress, Mr. Doug Ose 
from California, who just came back with us from meeting some 
of the Central and South American leaders and discussing the 
issue of curbing illegal narcotics.
    Mr. Ose, you are welcome and recognized.
    Mr. Ose. Thank you, Mr. Chairman.
    It is a pleasure to be here with you after spending last 
week on the Mica march through Central and South America. Mr. 
Mayor, I am especially appreciative of your appearance here 
today.
    On this visit last week, we heard substantial input. I am 
looking forward to yours regarding what we are doing on the 
domestic front to address our drug challenges with respect to 
education and treatment, law enforcement, incarceration; the 
entire domestic approach on which we are spending around $18 
billion a year.
    I begged to be on this subcommittee because of the 
importance of this issue. The one day that I was able to get 
back to my district over the weekend, I spent talking with 
people who have either been children or who are parents asking 
them for input regarding our domestic strategy.
    I thought the comment earlier about treating the wounded in 
our country was appropriate. We are accused or it was suggested 
to us in South America that we were the few, the myopic, and 
the vociferous.
    I have to tell you, there are more than just us up here who 
are interested. I am myopic on this issue. I intend to be 
vociferous. So, I am hopeful that you can give us some guidance 
here.
    Thank you, Mr. Chairman. I yield back.
    Mr. Mica. Thank you.
    Mr. Mayor, this is an investigations and oversight 
subcommittee of Congress. A part of our rules for the 
subcommittee is that we do swear in our witnesses. So, if you 
would please stand, Your Honor.
    Would you raise your right hand?
    [Witness sworn.]
    Mr. Mica. Thank you. Let the record show that the witness 
answered in the affirmative.
    It is my pleasure now to introduce the mayor to our 
subcommittee. It was my privilege back in the early 1980's, 
almost two decades ago, to work with Rudy Giuliani, who was 
then the Associate Attorney General of the United States.
    In that capacity, he assisted me. I was a staffer with 
Senator Hawkins of Florida and our Nation faced a wave of 
crime, illegal drugs, and immigration problems that were just 
staggering.
    I must say that there was no one in that administration at 
that time who did more to bring that situation under control 
than Mayor Rudy Giuliani, at that time, Associate Attorney 
General.
    I know because he was on our side when we tackled those 
tough problems. He has an incredibly distinguished record, not 
only as mayor, but also as U.S. Attorney when he tackled the 
problems of organized crime in a manner that is almost 
legendary.
    So, it is with great personal pleasure that I welcome 
before our subcommittee of Congress one of our first witnesses, 
someone who we want to hear from. We appreciate his counsel and 
his--if there are any disturbances from the audience, would you 
please alert the Capitol Police. I will have anyone removed 
immediately.
    Mr. Audience Attender. Mr. Ama Dou Diallo, who was only 22 
years old, a Black man, gunned down and killed.
    Mr. Mica. I am sorry, sir. You are going to have to leave 
the subcommittee room.
    Mr. Mayor, again, we are absolutely delighted that you are 
here. We are anxious to hear about your record of success. We 
know that sometimes with success you also get criticism.
    We want to hear your commentary on how you have tackled the 
problem and how you are tackling the situation with illegal 
narcotics and crime in the city of New York.
    You are recognized, sir.

     STATEMENT OF RUDOLPH GIULIANI, MAYOR, CITY OF NEW YORK

    Mr. Giuliani. Thank you very much, Mr. Chairman.
    I thank you for the opportunity to discuss what I believe, 
as I believe members of this subcommittee----
    Mr. Mica. Mr. Mayor, you might have to pull that up as 
close as you can. Our audio system is antiquated. We are 
working on it.
    Mr. Giuliani. I appreciate the opportunity to address what 
I believe and I think members of this subcommittee have just 
expressed the same thing. The most important domestic and maybe 
international problem that we face is the problem of drug 
abuse.
    I think that unfortunately it does not often enough rise to 
the level that it should in order to have the coordinated 
intense response that it needs, given the damage that it does 
to our society.
    In New York City over the last 5 years, a lot of good 
things have happened and there still are a lot of problems. 
Probably the thing that is known most is the tremendous 
reduction in crime.
    We went from a city that had about 2,000 murders a year, 5 
years ago, 6 years ago, to a city that last year had 629 
murders. So, we have had a 70 percent reduction in murder. We 
have had a 50 percent reduction in overall crime. In the 
poorest neighborhoods of the city, and some of the 
neighborhoods that were afflicted the most by drugs, one of 
them Crown Heights in Brooklyn, we have had an 80 percent 
decline in murder; Washington Heights in Manhattan, which used 
to be a center of drug dealing, has had about an 85 percent 
decline in murder; about a 70 percent decline in crime.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2235.001
    
    [GRAPHIC] [TIFF OMITTED] T2235.002
    
    [GRAPHIC] [TIFF OMITTED] T2235.003
    
    [GRAPHIC] [TIFF OMITTED] T2235.004
    
    [GRAPHIC] [TIFF OMITTED] T2235.005
    
    Mr. Giuliani. New York City is now, according to the FBI, 
the safest large city in America; the city with the least 
amount of crime that has a population of over 1 million, which 
probably would have been unheard of 5, 6, 7, 8 years ago, a 
decade ago, a decade and a half ago.
    There are a lot of reasons for that, and a lot of different 
things, and a lot of people that have contributed to it. Things 
that have to do with the communities; things that have to do 
with the police department; the technology that is now 
employed; the broken windows theory that is used; 
accountability that exists within the police department.
    I think I should also say, in light of the interruption 
before, that one of the myths that is created in trying to rob 
the police department of the credit it deserves for the 
tremendous amount of work that it has done to make New York 
City the safest large city in America, is that despite at times 
tragic incidents, and at times even criminal conduct on the 
part of police officers, the overwhelming majority of police 
officers not only conduct themselves lawfully, but have put 
their lives at risk and have lost their lives in order to 
achieve this degree of safety. I, unfortunately, have been at 
too many of their funerals where a police officer laid down his 
life in order to save somebody in New York city of whatever 
race, religion, or ethnic background.
    Finally, on that subject, one of the myths that is created 
is that this tremendous record of crime reduction has been 
achieved by police officers becoming more violent. Just the 
opposite is the case.
    Police officers in New York City, over the last 5 years, 
have reduced their use of guns, and weapons, and shootings by 
over 67 percent. So, as they have reduced crime by 50 percent, 
and they have reduced murder by 70 percent, they now shoot 
their guns and discharge bullets on a per capita basis 67 
percent fewer times.
    As compared to cities with populations of over 800,000, we 
exceed police officers who discharge their weapons less often 
than in just about any other city in America.
    So, there was an article in the Washington Post I think a 
few months ago comparing Washington to New York and pointing 
out that New York City police officers discharge their weapons 
about 4 or 5 times less often than in Washington, DC.
    So, I wanted to say that so that there will not be the 
sense that although people acknowledge the tremendous decline 
in crime and the increase in safety, that people also 
understand that the police officers in New York City, 40,000 of 
them, are among the most restrained in the use of their weapons 
of any urban police department in the country, and have become 
considerably more restrained as they have reduced crime.
    Having said that, and even with that record of crime 
reduction, I would have to say that one of the primary reasons 
for the major crime reduction that we have had, and one of the 
primary reasons that it may or may not continue is the whole 
area of drug enforcement.
    We have obtained a great deal of our crime reduction by 
putting a tremendous amount of emphasis on drugs, and a 
tremendous amount of emphasis on dealing with the problem of 
drugs in a very, very comprehensive way.
    When I was Associate Attorney General, maybe even before 
that when I was an Assistant U.S. Attorney back in the 1970's, 
I used to be in charge of narcotics enforcement. Then I had the 
respon- sibility of overseeing the Drug Enforcement 
Administration when I was the Associate Attorney General in the 
Reagan administration.
    I developed a theory in those years that I now have a 
chance to put in practice as a local official; at least part of 
it. It seems to me that there are five things that we should do 
about drugs.
    There are five different areas of concentration. In none of 
those areas are we doing as a Nation or as a society what we 
should be doing. We are doing some of it, but we are not doing 
enough of it.
    Drug interdiction, drug enforcement, drug policy should be 
a major area of our foreign policy. It should be right at the 
very top. It should be right up there with international trade, 
disputes between countries, border disputes, regional disputes.
    It should be one of the three or four most important 
aspects of the foreign policy of the United States. When you 
pick up a foreign affairs magazine or a foreign policy 
magazine, you should read as many articles about what should be 
done in engaging the countries that are the source countries 
for drugs as you read about international trade, or about 
border disputes, or long-standing ethnic disputes.
    The reason for this is really simple. This is our most 
important domestic problem. The art of foreign policy is to, 
over a wide stage, try to advance the interest of your country.
    It is in the interest of the United States to reduce 
dramatically the amount of drug production that goes on and 
drug shipments that go on all throughout the world. We should 
use our influence. We should use our ability to influence other 
nations.
    We should use our ability to give them aid and assistance. 
We should use our ability to persuade. We should use requests 
for our assistance as a quid pro quo for every opportunity that 
we can get.
    This is not particularly a criticism of just this 
administration. This has been an institutional problem for a 
long time. It has never given the drug enforcement, drug 
interdiction, and drug policy the same level of intensity as 
some of the other issues that face us in the area of foreign 
policy.
    That is something that the Federal Government and literally 
the President, have to achieve. It has not been achieved.
    The second thing is this has to be a source of tremendous 
intensity with regard to border interdiction. That, again, is 
the respon- sibility of the Federal Government.
    There are three areas, however, where local governments can 
play a very important role. We need help. We need help from our 
States. We need help from the Federal Government. It is an area 
where I have been able to focus on as a local official.
    Education, treatment, and enforcement, all three, and you 
have to do all three. You have to be equally committed to all 
three, if you want to reduce drugs in a city, in a State, and 
in a country. We have increased our educational efforts 
dramatically in our schools and in our community groups.
    We have police officers that now go into our schools with a 
tremendous amount of support from the community to teach young 
people on a one-to-one basis, not only the dangers of using 
drugs, but the life-fulfilling and life-affirming things that 
you can do that buildup a resistance to the temptation of being 
involved in drugs.
    That program, the DARE Program, has been an enormously 
successful program. It has not reached every child. It has not 
reached every school. Over the next year to 2 years, it will.
    As we are doing all of the intense things that we are doing 
in law enforcement, the educational part of it, is equally as 
important.
    We also have increased our specific program to setup what 
we call drug-free zones around our schools, so that the police 
put extra attention on the areas around the schools in order to 
remove drug dealers from the schools and from the areas around 
the schools.
    After a 4 year battle, I was able to persuade our Board of 
Education, because I do not control the school system as 
Congressman Towns knows, I have two votes on the board out of 
seven. However, after 4 years of persuasion, I convinced the 
school board to allow the police department to take over school 
security.
    We have 3,400 school security officers. They were not very 
well-trained. They were not particularly well-educated on 
dealing with the dangers of drugs; even seeing the temptations 
and the problems that come up with drugs.
    The last 4 or 5 months, they were taken over by the police 
department. They are now being trained. We will make every 
school a drug-free school with a drug-free zone around the 
school.
    So that even if we cannot get drug dealers out of every 
single neighborhood in the city and drive them completely out 
of the city, we can keep them away from our schools and maybe 
send a different message.
    We have also put a tremendous amount of emphasis on drug 
treatment. Rather than going into the details of it, which I 
would be happy to supply in questions, I would like to give you 
the philosophy of it; something where I really need your help, 
the help of the Congress, and of the administration.
    We are making a mistake in the way in which we do drug 
treatment. New York City pays the biggest price for this. We 
put the majority of our money in New York City, which is 
largely State and Federal money, and is mandated to be used to 
keep people addicted.
    A minority of our money is to involve people in drug-free 
programs. Because of the mandates and because of the matching 
Federal dollars, the State funds a drug treatment program in 
which somewhere between 60 and 70 percent of the people in the 
treatment are on methadone.
    Methadone is a drug. Methadone keeps you addicted. 
Methadone means that you can be addicted for 15 or 20 years. 
Roughly, the percentages work out something like this. Well-
over 50 percent of the people who are in methadone go back to 
heroin.
    So, you have accomplished nothing, but sustaining them in 
their addiction. Then they go back to drugs in a fairly short 
period of time. About 70 to 80 percent of the people on 
methadone cannot work and do not work.
    They never achieve the ability of being able to take care 
of themselves. Methadone, if justifiable at all, is justifiable 
as a transitional treatment to a drug-free program.
    Maybe it needs to be reserved in those few very, very 
difficult cases in which freedom from drugs as the end result 
of a treatment program just cannot work. We have flipped it. It 
reminds me somewhat of what we did with welfare back in the 
1960's and the 1970's.
    We intended to help people for a short period of time. It 
became generational in nature. Now what we have done is we have 
made the exception the rule because it is easier and because 
industries have grown up that draw in huge amounts of money for 
doing methadone maintenance.
    They shy away from doing the more difficult work of putting 
people into drug-free programs. We are trying to reverse that.
    Our goal over the next 2 to 3 years is instead of 70 
percent of our treatment slots being for maintaining people 
interdiction, and 30 percent for drug freedom, we would like to 
flip it and get it to 70 percent drug freedom, and 30 percent 
reserved for methadone as a transition drug, as a temporary 
measure.
    There is a philosophical problem here at the core of the 
Federal Government's mandates and the way in which it 
conditions money to the cities and the States. It has them 
invest much more in keeping people addicted, rather than 
investing in moving people toward drug freedom.
    Now, the area that I think probably is the real core of 
this testimony is what we have done in the area of law 
enforcement.
    As a part of the crime reduction in the city of New York, 
and also as a part of trying to make New York City as drug-free 
as possible, I learned very early on when I was a U.S. 
Attorney, by using Federal agents to arrest people that 
ordinarily would have been arrested by just the local police. 
If you can concentrate your drug enforcement resources, in 
essence, block-by-block, neighborhood-by-neighborhood and just 
arrest every drug dealer you can find and prosecute them, then 
you cannot only get tremendous reductions in drug activity--I 
began this way back in 1983, 1984 on the lower east side of 
Manhattan by flooding the area with police and arresting drug 
dealers of every kind; the highest level drug dealers, the 
middle level drug dealers, the people on the street.
    We ended up, over a period of about 6 months on the lower 
east side of Manhattan, seeing 50 and 60 percent reductions in 
car thefts, burglaries, rapes, and other forms of crime. We 
have taken that concept and we have refined it quite a bit.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2235.006
    
    Mr. Giuliani. We do it in cooperation with the Drug 
Enforcement Administration and sometimes with the FBI. We have 
essentially taken the areas of the city that had the most drug 
activity and we have created for those areas what are called 
drug initiatives.
    We take a large number of police officers and put them in 
groups of five. They are called modules. Their job is very 
simply to wipe out drug dealing in a community. They go block-
by-block.
    They work with the people in the community. They try to 
identify every drug dealer. They try to, over a period of 6 
months to a year, get every drug dealer arrested. Then we work 
with the prosecutor's office to get those cases prosecuted so 
that they are concentrated on in the courts. We try hard to 
avoid parole or probation for them so they do not get back out 
on the streets quickly. We have now spread that throughout the 
city.
    [Map shown.]
    Mr. Giuliani. I have a map here that kind of demonstrates 
it. One of the things that we have done, and the thing that has 
brought about the crime reductions in the city is we keep 
moving and increasing our commitment to it.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2235.007
    
    [GRAPHIC] [TIFF OMITTED] T2235.008
    
    [GRAPHIC] [TIFF OMITTED] T2235.009
    
    Mr. Giuliani. So that the goal ultimately will be a city in 
which--if you look at that map--that is the city of New York. 
That is the greatest city in the world, Congressman. That is 
the one you mentioned before as the greatest city in the world.
    If I could just stand up here for one moment, I could point 
it out. The drug initiative began right here. This area, 
although it is only about 19 percent of the population of the 
city, was producing 29 percent of the crime in the city.
    This area was exporting more crime to other areas. A few 
years ago, we put 1,000 additional police officers into those 
areas to arrest every drug dealer we could find.
    The result is that this area, for the last 2 years, has 
just about lead the city in crime reduction. It has now become 
one of the safer areas in the city.
    What we knew would happen is if we drove drug dealers out 
of this part of the city, they would then increase in other 
parts of the city. So, we kept the drug initiative there and 
then we just increased it. We then moved to other parts of the 
city.
    Now, the areas that are colored areas, all of those areas 
have intense drug enforcement, drug initiative task forces. 
Essentially, they are following the patterns of the drug 
dealers.
    As we move them out of here, they move here. We move there. 
We stay there. We do not move out. When we put pressure on it 
here, and here, and here, and here, they move to these areas. 
Then we move with them.
    Essentially, it is a very, very heavy commitment of 
arrests. New York City had the safest year that it has had 
since 1964, 1965 last year. It had the most drug arrests in its 
history.
    So, there are a lot of sophisticated reasons for the crime 
reduction; the COMSTAT Program, the Broken Windows, community 
groups, and community policing. Probably equal to all of those 
and maybe slightly more important are the 120,000 drug arrests 
that took place last year.
    If those 120,000 drug arrests did not take place last year, 
I do not think there would have been an 18 percent decline in 
homicide and a 12 percent decline in overall crime. We have 
just expanded these drug initiative task forces to three other 
parts of the city of New York.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2235.010
    
    [GRAPHIC] [TIFF OMITTED] T2235.011
    
    [GRAPHIC] [TIFF OMITTED] T2235.012
    
    Mr. Giuliani. It is a very, very labor-intensive effort. It 
is a very dangerous effort because drug dealers, as you know, 
are among the most violent and the most dangerous criminals 
that we deal with.
    The end result is really a wonderful one. There are 
communities in the city of New York that I knew very, very well 
when I was a U.S. Attorney and a prosecutor, and when I ran for 
mayor the first time and the second time that were overwhelmed 
by drugs, where you can now go and there are no drug dealers.
    Children are playing on the streets. Children are able to 
go to their schools. They are growing up not living in 
oppression. I used to feel that there were large segments of 
New York City where it did not make much difference whether you 
lived in New York City or you lived in the Soviet Union in 
those days because you were just as oppressed.
    Except in New York City, you were oppressed by the drug 
dealers who controlled your block. They told you what to do. 
They told you where to go. They killed you if you turned them 
in to the police.
    Now, those areas have, in very, very large measure, been 
liberated; not to perfection. We still have serious drug 
problems. That is why we need your help on a Federal level with 
assistance for these programs, but also with a much more 
intelligent and a much more focused Federal drug policy. I do 
not see, right now, the philosophy or the movement in the 
Federal drug policy.
    Of the people that we arrest, 70 to 80 percent are involved 
in drugs, to this day, even with the crime declines. Maybe even 
more tragic, 70 to 75 percent of the children that we have to 
bring into foster care because their parents are beating them 
or abusing them, and we have about 40,000 children in foster 
care.
    So, this is a large number and a tragic number. About 70 to 
80 percent, at least one of the parents or the care giver, is a 
drug abuser and maybe more than one.
    There is a clear correlation between the success that a 
child can have and their ability to be able to work, their 
ability to be able to succeed, and their ability to stay out of 
being involved in crime, and their exposure to drugs, or a 
family that is involved in drugs.
    So, I am looking forward to working with you on 
constructive things that we can do. The local governments have 
an important responsibility here. I believe we are taking on 
that responsibility as best that we can.
    The State governments do, but the Federal Government also 
does in the area of foreign policy, border patrol, and in 
cooperation with regard to the treatment, education, and law 
enforcement efforts that are absolutely necessary.
    There is absolutely no way in which anybody could 
exaggerate the danger of drugs. I think the more concentration 
that we can have as a Nation and how we turn around this 
problem, the more successful, the healthier, and the better 
America we are going to have in the next century.
    The people who we will help the most are the people who are 
the poorest sometimes and the most oppressed in our society 
because they are the ones who are most affected by this.
    [The prepared statement of Mr. Giuliani follows:]

    [GRAPHIC] [TIFF OMITTED] T2235.013
    
    [GRAPHIC] [TIFF OMITTED] T2235.014
    
    [GRAPHIC] [TIFF OMITTED] T2235.015
    
    [GRAPHIC] [TIFF OMITTED] T2235.016
    
    [GRAPHIC] [TIFF OMITTED] T2235.017
    
    [GRAPHIC] [TIFF OMITTED] T2235.018
    
    [GRAPHIC] [TIFF OMITTED] T2235.019
    
    [GRAPHIC] [TIFF OMITTED] T2235.020
    
    Mr. Mica. Thank you, Mayor Giuliani.
    I would like our staff director to give you a copy of the 
national drug control strategy. I know you have not seen it. It 
was just rolled out by the administration last week.
    Tomorrow at 10 a.m., we will hear from the national drug 
czar, the Director of the Office of National Drug Control 
Policy on this strategy.
    You cited, Mayor, that you felt the Federal Government has 
certain responsibilities. I think one of the first and primary 
ones that you alluded to is our responsibility to stop drugs at 
their source and interdict drugs.
    We have reviewed this strategy on a preliminary basis. Last 
year the Congress put $17.9 billion in the anti-narcotics 
effort, drug treatment, and all of the other programs.
    This year the administration has proposed $17.8 billion; 
$109 million less. It is sometimes not how much money you spend 
or throw at a problem, but it is how you spend it. This 
strategy also would propose, over last year's budget, 
reductions in interdiction, eradication of drugs at their 
source and crop substitution.
    How effective do you think these programs are? Should we 
closely visit these figures as, again, a Federal 
responsibility?
    Mr. Giuliani. I think it is a question of philosophy, 
approach, and commitment. Then I would be able to tell you if 
the dollars were sufficient. I do not see, on the part of the 
State Department, the kind of commitment to persuading in some 
cases, and pressuring in other cases, the governments that have 
to be dealt with to reduce the source of drugs in the first 
place.
    I agree entirely with, I think it was Congressman Barr who 
said this. Part of that process has to be to reduce the demand 
for drugs in the United States. I mean that is our end of the 
bargain.
    It is very, very hard to go to somebody in Colombia, or 
somebody in Pakistan, or somebody anyplace and say you put your 
lives at risk to reduce the drug dealing, but we are going to 
spend $60 billion on drugs in the United States and not do 
anything about it.
    So, this is a very, very coordinated thing that has to be 
done here. We have to show our commitment by reducing the 
demand for drugs in the United States by really very, very 
well-focused, very intense, and very disciplined anti-drug 
programs, advertising programs, educational programs in the 
schools.
    Public officials from the President on down speaking out 
about the drugs often, and about the danger of drugs, and the 
alternatives to drugs. It should be a major commitment to doing 
it.
    At the same time, we should be putting an enormous amount 
of pressure on the governments that are the source countries 
for drugs to take the risk that they have to take in order to 
do crop substitutions; literally changing their economies.
    It has got to be a major focus of our foreign policy. It 
cannot be something that is a second level issue, or a third 
level issue, or occasionally a State Department hierarchy will 
get engaged in it, but it is not the major focus of what they 
are doing.
    As far as the financial commitment to it, it would seem to 
me from the results that we have had over the last 10 or 12 
years that we need more of a commitment to it, not less. We 
also need to very much dramatically refocus the way in which we 
conduct foreign policy.
    When an American ambassador, or the Secretary of State, or 
the Deputy or the Assistant Secretary of State are engaging 
diplomats in other countries that are source countries for 
drugs, this should be at the very top of the agenda.
    This should be item No. 1. What are you doing about 
reducing the crops? What are you doing about cooperating with 
us if you are a trans-shipment country? You want help from us. 
We have got to see much better improvement on this. We should 
keep statistics on it.
    We should publish the statistics. We should couple our 
efforts with foreign policy.
    Mr. Mica. Our subcommittee is charged with putting together 
Congress' policy. We would like you to provide us with your 
recommendations as a local official.
    Mr. Giuliani. I will be happy to.
    Mr. Mica. The other question that I had dealt with the 
pressure now to legalize drugs, to provide free needles, and 
methadone for those on narcotics.
    You have stated that you have concerns about some of these 
programs that seem to keep people on drugs or addicted in some 
way. There is more and more pressure for Congress and for 
States to liberalize our laws relating to drug use.
    Could you comment about your philosophy and maybe provide 
us with some direction from your experience?
    Mr. Giuliani. Well, the urge to legalize drugs, de-
criminalize drugs, I think comes out of frustration for people 
who are well-motivated.
    It comes out of the frustration of not seeing the kind of 
progress that we should be seeing on a national level in 
reducing the amount of drugs, the number of drugs, the amount 
of money that comes out of the drug industry.
    I think it is a very, very, very dangerous debate to have 
because it reduces the ability to convince young people that 
drugs are dangerous.
    To me it is very, very perplexing. In an era in which 
Americans, American opinion leaders, are much more concerned 
about the dangers to your health of smoking, of unclean air, 
and all other kinds of environmental problems and issues, all 
of which is a very, very good thing, to have people suggesting 
that we should de-criminalize, and by de-criminalizing you 
encourage. Make no mistake about that. The law is ultimately a 
teacher.
    What it does is it creates dividing lines for us between 
what is right and wrong and the direction in which we move 
young people.
    So, if you break down the barrier and now you say use all 
of the marijuana you want, that is OK, then you are going to 
see significant numbers of people that you are not seeing today 
using marijuana.
    Then you are going to see a certain percentage, not all, 
start moving on to cocaine and to heroin. That is just the 
reality of life in the countries that have done it. The 
countries that have de-criminalized and legalized drugs, they 
have seen a significant increase in the amount of drug use, not 
only of that drug, but of other drugs.
    I will give you one other perspective on it that comes out 
of my experience of investigating and prosecuting organized 
crime for a good deal of my life. There are people who argue 
for legalizing and decriminalizing drugs.
    They say it will take the profit out of drug dealing. It 
would be the best thing you could possibly do for organized 
crime.
    You would end up in a very short while giving them the 
opportunity to make even more money than they are making today, 
as they have actually done in countries in which they have 
legalized drugs.
    They would have a black market in which they would just 
adjust the price on the black market to meet the increased 
demand for the additional drugs that people want.
    If you were to de-criminalize drugs, and you were to allow 
people to use heroin, they would not be able to get all of the 
heroin they need from legal channels.
    A doctor is not going to give you a prescription that says 
have all of the heroin you want any time you want it, which is 
what a heroin addict eventually needs.
    So, the heroin addict would supply their need for heroin in 
the legal marketplace. Then they would go to a black market to 
get the additional amount of heroin that they want or that they 
want to traffick in.
    Organized crime would be able to make, by just adjusting 
its dollars--the price of drugs can vary dramatically as a 
function of supply and demand.
    You would end up with a black market in drugs that would at 
least be the equal to or maybe greater than organized crime's 
involvement in the present availability of drugs.
    It is a very, very damaging approach. We should be using 
our laws to make America healthier. We should be using our laws 
to move us toward a freer, more independent society as opposed 
to, in essence, caving into a vast social problem, admitting 
that as a government and as a society there is nothing we can 
do about this except letting a lot more people destroy their 
lives by using drugs, and we are just going to stand by and 
watch.
    It should not be ignored in all of this that the people who 
will pay the biggest price for this abandonment of any kind of 
social responsibility here will often be the most powerless, 
and people with the least opportunity in our society.
    Maybe it is a little bit easier to talk about this social 
experiment because it does involve significant numbers of 
people who are among the less powerful in society.
    Mr. Mica. Thank you.
    I would like to yield now to our ranking member, Mrs. Mink.
    Mrs. Mink. I thank the chairman for yielding to me.
    I do want to take this time to recognize the presence of 
one of our distinguished colleagues on this side of the aisle 
representing the city of New York; our colleague, Mr. Meeks. I 
would like, Mr. Chairman, to yield my 5 minutes to Mr. Meeks at 
this point.
    Mr. Mica. Without objection. You are welcome to join us. 
Thank you.
    Mr. Meeks. Thank you, Mr. Chairman.
    Thank you Ranking Member Mink. Mr. Mayor, what I would like 
to start out with is your initial comments that you made at the 
beginning of your testimony where you have indicated initially 
with reference to crime rates going down under your 
administration.
    The FBI's Uniform Crime Report tells us a different story. 
Given the crime index which combines violent crimes and crimes 
against property in the report, the report shows a clear 
decline long before your administration.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2235.021
    
    Mr. Meeks. A result of the economic boom and community 
policing that was actually started under Mayor Dinkins is that 
crime in fact had begun to decline; not only declining in New 
York City, might I add, but every major metropolitan city in 
this Union. Crime has gone down, as opposed to it just being 
within your administration.
    So, would you not agree it is fair to say that the economic 
climate of this country has a lot to do with the reduction of 
crime?
    Mr. Giuliani. Well, I would say that the economic up-turn 
in America has a lot to do with the reduction of crime. That is 
quite true, but I would have to correct some of the other 
things that you have said.
    First of all, in the 4-years before I came into office 
under the prior mayor, the city averaged 2,000 murders a year. 
I think it was 2,200; 2,100; 1,985; and 1,055.
    Since I have been in office, we have been able to bring 
that number down to 629. The reductions that occurred in the 
last year of the Dinkins administration, the last 2 years, were 
very, very small percentage reductions.
    Since I have been in office, they have been about 10 to 15 
percent per year. They have been 5 times the national average. 
If New York City had a crime decline like the rest of the 
Nation, then New York City's crime decline would be about one-
fifth of what it has been.
    There may be another way to look at it. For the 5 years 
that I have been in office, New York City has accounted for 24 
percent of the crime decline in America. So, the crime declines 
in New York City have been much more significant than in the 
rest of the country.
    Since I have been in office, they have been much more 
dramatic than the small declines in overall crime that occurred 
during my predecessor's administration. In the area of murder, 
under my predecessor, New York City set records for murder that 
have never been reached at any other time; 2,100; 2,200; 1,955; 
and 1,985.
    Although the economic up-turn had something to do with 
this, and would explain the baseline decline in crime, the fact 
that New York City's decline has been 4 to 5 times the rest of 
the country, and the fact that New York City's crime decline 
has been sustained over a longer period of time than any other 
city in the country. When I came into office, New York City was 
one of the more dangerous cities in America from the point of 
view of overall crime and murder.
    It has now gone down to city No. 160 out of 180. There are 
things going on in New York that explain a good deal of the 
crime decline because it is much greater than the rest of the 
country.
    Mr. Meeks. Yet in fact, Mr. Mayor, at least, based upon 
your earlier statement in reference to the decline of the 
number of shootings, the police has utilized as far as bullets 
are concerned.
    In New York City, as you well-know, recently the shooting 
of Mr. Ama Dou Diallo, and incidents with reference to Mr. 
Abner Louima, Mr. Diaz; in cases of police brutality in the 
city of New York, particularly in reference to the minority 
community, your voice has not been as loud as it has been on 
other issues.
    In fact, during the period between 1996 and 1997, over a 1-
year period, the city has had to settle 503 police misconduct 
cases. The city's law department reports that police 
misconduct, assault, excessive force, false arrest, and 
shooting by the police cost the city's taxpayers more than $44 
million in your first 2 years as mayor.
    That is an astounding average of about $2 million a month 
for police misconduct cases alone. There has been an increase 
in the number of brutality claims. They have in fact tripled to 
2,735 between June 1996 and June 1997, according to the city's 
comptroller.
    Also, it seems clear that most of the victims of police 
brutality happen to be African American and/or Latino. They 
have filed 78 percent of the complaints against the police. 
While 67 percent of the officers involved in this happen to be 
white--was released in February 1997, found that 81 percent of 
blacks and 73 percent of Hispanics believe that police 
brutality is a serious problem in New York.
    It seems to me that, at least from the district that I 
represent, I was just told on my way over here that another 
young man in my district was unarmed, was shot by the police 
yesterday.
    I was also told by a number of African American men in my 
district that when they are pulled over by the police, they 
fear the police as much as they fear the common criminal on the 
street.
    Now, what I will agree with you is on this--I would agree 
with you that the overall number of individuals in the police 
department, as a former prosecutor myself, do a great job in 
the city of New York.
    However, they need the voice from the top, which it appears 
has not been under your administration, that says we will not 
tolerate police brutality and excessive force by the police 
department in the city of New York.
    Mr. Giuliani. First of all, I do not think you have ever 
listened to my voice. I have said over and over again, 
including--that was a long question. You have got to give me a 
chance to answer it, if you are being fair.
    The fact is that I have over and over again said that 
police officers have to be respectful. We have taken action 
against police officers who have acted improperly. One of the 
cases that you mentioned, it was my administration that fired 
the police officer in question, even though he had been kept on 
by prior administrations.
    We have worked very, very hard to make this police 
department more respectful and more restrained. In your 
selective use of statistics, you leave out the fact that 
incidents such as the one that you are talking about have 
occurred in New York City for the last 20 to 25 years.
    That police brutality and the issue of police brutality has 
not been an issue just exclusively of my administration or 
while I have been mayor of New York City. Then you have got to 
start looking at, if you are interested in fairness rather than 
demagoguery, you have to look at the number of incidents.
    The number of incidents of police brutality, for example, 
are less in my administration than in the administration of Ed 
Koch or David Dinkins. That is something you did not mention. 
1993 was the last year of David Dinkins' administration. I just 
happen to have these statistics with me.
    There were 62 percent more shootings by police officers per 
capita in the last year of David Dinkins' administration than 
last year which was my administration. In every year of my 
administration, something you left out of your statement, in 
every single year of my administration, the police officers 
have grown more restrained in their use of firearms, even as we 
have added 10,000 police officers and given them automatic 
weapons.
    I will give you the exact number. In 1993, there were 212 
incidents involving police officers in intentional shootings. 
In 1994, there were 167. Now, in 1998 it is down to 111. That 
is 2.8 shooting incidents per 1,000 officers.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2235.022
    
    [GRAPHIC] [TIFF OMITTED] T2235.023
    
    Mr. Meeks. In 1993, David Dinkins' last year in office, 
there were 7.4 shooting incidents per 1,000 officers. That is 
62 percent less per capita. So, yes, we have problems. Yes, we 
have difficulties. Yes, we have lots of things that we have to 
work on.
    Yes, I have spoken out about it 100 times or 1,000 times. I 
was at a police graduation last week. I said to the 800 police 
officers that what we expect of them is restraint, almost an 
inhuman ability to be restrained when they have to be.
    We expect respect for every single citizen of New York 
City. I have increased the size of the civilian review function 
in the police department. I have increased the number of 
inspectors and people who are involved in that.
    Finally, on the incident that you just threw out there 
without any analysis, let me tell you what I know of that 
incident. That was an incident in which police officers were 
called to a man's home because he was beating his wife.
    He apparently broke her jaw. The wife called because she 
said over 9-1-1, that this man was trying to kill her. These 
two police officers went there to save her life. They did not 
sit back and think about, oh, are we going to save this woman's 
life who is Catholic, Protestant, Jewish, white, or black?
    Are we going to save this person's life and some kind of 
political demagogic debate that sometimes takes place in the 
area of politics? They put their lives at risk to go there to 
save her life.
    He turned to them and said, ``You will have to kill me.'' 
They shot him and wounded him. We had an incident in New York 
City----
    Mr. Meeks. Mr. Mayor----
    Mr. Mica. I am sorry, Mr. Meeks. The time----
    Mr. Meeks. That is just----
    Mr. Giuliani. You have to----
    Mr. Meeks. You actually make a presumption in this case, 
but yet when Mr. Diallo was shot, you do not say the same thing 
where there are 41 bullets that are fired at one man.
    Mr. Mica. Mr. Meeks.
    Mr. Meeks. So, you make a presumption on one and talk early 
on one instance and not on the other.
    Mr. Giuliani. I do not make presumptions and I do not make 
demagogic speeches without the facts.
    Mr. Meeks. Neither do I.
    Mrs. Mink. Mr. Chairman.
    Mr. Giuliani. The simple fact is that I do not know the 
facts in the Diallo case. There were four police officers 
involved. There were no witnesses. I do not know the facts. So, 
I will not presume the facts.
    I will not presume the facts against the victim in any way. 
I have great sympathy for the victim and his family. You left 
out of your statement the fact that I called the victim's 
father.
    I reached him in Viet-Nam. I arranged for him to get a 
visa. The city offered to pay for getting him to New York City, 
as well as the family. I spoke to the father; expressed my 
sympathy.
    I told him how sorry I was about it. I am in the position 
where I do not know the facts, and neither do you, of what 
happened in the Diallo situation. The four police officers were 
involved. There were no witnesses. The four police officers 
have exercised their privilege against self-incrimination.
    Anybody who is telling you the facts is making them up on 
either side of it. We have, unfortunately, prejudiced people on 
both sides who will give prejudicial viewpoints rather than 
speaking from the facts.
    The facts that I just gave you about the incident, if it is 
in your district, come from four discussions with the police 
commissioner, from several witnesses to the incident, including 
the police officer's partner, the woman whose jaw was broken by 
the man who was shot, and I believe the man's mother.
    They were witnesses to the incident. In the other incident, 
we do not have any witnesses. I would be happy to give you the 
facts, if I had them.
    Mr. Mica. The gentlelady's time has expired.
    Mrs. Mink. Mr. Chairman, may I ask consent to insert at 
this point in the record, FBI data and a chart?
    Mr. Mica. Without objection; so ordered.
    They will be made a part of the record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2235.024
    
    Mr. Mica. I do want to thank the gentleman for coming. 
Also, I try to give a free opportunity for folks to enter their 
questions.
    Mr. Towns, when he was chairman, always allowed me that 
courtesy when I served under him. Other Members are always 
welcome. I think that is a part of our process here, to keep it 
open.
    Sir, I would welcome you submitting questions to the mayor 
as our witness, written questions. I will leave the record open 
for 2 weeks for additional commentary.
    Mrs. Mink. For me too?
    Mr. Mica. You are in the deal.
    I cannot do anything without my ranking member. She has 
done a great job.
    Mrs. Mink. I have so many questions.
    Mr. Mica. If we have another round, you will be welcome. We 
will also leave the record open. I do want to be fair to all 
Members. Mr. Barr has waited patiently.
    So, I am pleased now to recognize the gentleman from 
Georgia, Mr. Barr, our vice chairman.
    Mr. Barr. Thank you, Mr. Chairman.
    I think your record, which I am very familiar with, Mr. 
Mayor, speaks for itself. It speaks for our country and for the 
very best of our effort to fight mind-altering drugs. Let me 
ask you, some of you did not touch on it.
    It may be that you all do not have this problem in New 
York. I suspect you do to some extent. We have it in 
communities in my district where I live in Smyrna, GA; perhaps 
not to the same degree, but certainly it is a serious problem.
    That is with illegals; illegal aliens coming into our 
communities. Some of the problems that our local law 
enforcement are facing I know are the same sorts of things that 
you grappled with when you were at the Department of Justice 
and likely as U.S. Attorney.
    That is what do we do? How do we address the problem of the 
illegal aliens being detained on drug charges? We are seeing 
some particular problems with INS, the Immigration and 
Naturalization Service.
    Just recently, Commissioner Meisner has indicated an intent 
to start releasing felon offenders from detention, including 
drug traffickers and other criminals.
    This comes at a time when we in the Congress and the 
President by signing the appropriating and authorizing 
legislation have greatly increased the amount of money going to 
INS.
    Specifically, to assist them in working with local law 
enforcement and State law enforcement to keep the illegals 
detained so that they are not released back into the community.
    Is this a problem that you are seeing in your jurisdiction? 
Is this helping or hindering your ability to fight the drug 
problem in New York City?
    Mr. Giuliani. The failure of the Immigration and 
Naturalization Service to timely deport people convicted of 
drug dealing, even though if they finished their sentences, is 
a very damaging thing in the city of New York.
    On a comparative basis, I do not know if it would be as 
damaging to New York as it is to Los Angeles or Miami where 
there might be a higher level of it. It certainly is something 
that creates additional difficulties for the police.
    The number of deportations that take place in the city is 
just a very, very small percentage of the number of people that 
could be deported who have actually been convicted of felonies.
    So, we have the problem of not only finding the people who 
are doing it and incarcerating them, but when they finish their 
sentences then they are returned to society. They are not all 
deported.
    So, they remain in the city of New York. As unfortunately 
is the case, because of the recidivism rates, particularly in 
the area of drug crime, are pretty high, they go back to 
selling drugs again. Now, I have to say that the INS over the 
last 2 years, with some urging and some cooperation that we 
have given them, have increased the number of deportations.
    It is something that they are trying to do something about. 
Frankly, they do not have the resources and the funding to do 
the number that they should. I am sorry. I do not have the 
exact numbers. I will get them for you.
    If they deport 20 percent of the number that could be 
deported who have not--not just accused of selling drugs, but 
are convicted of it, that would be a lot. So, it is probably 
about 80 percent that are returned to society. I will get you 
the exact numbers.
    Mr. Barr. Thank you. I would appreciate that because I 
would like to compare it to some of the problems we are seeing 
in some of the communities in my jurisdiction.
    One thing that impresses me about your approach is not just 
that you have a very sound, a very, very strong handle on the 
big picture, but you understand some of the nuts and bolts.
    Frankly, I am amazed. I do not know how you do it. Either 
you are a rocket scientist or you have a tremendous staff that 
works with you to be able to put together this sort of----
    Mr. Giuliani. I am no rocket scientist. So, it has got to 
be the staff.
    Mr. Barr. There would probably be some folks that would 
disagree with that. Even in your summary remarks here, one 
thing that impressed me was your recognition that before you go 
into an area, you have the chart up here.
    I know in your comments you also talked about your 
targeting of model blocks and your drug initiative areas. You 
do not just sort of go into an area willy-nilly and sort of 
catcher's catch can.
    Apparently, what you have done is to look very carefully at 
each individual area, develop the data and the information that 
you can then analyze before you target your resources. I think 
that is perhaps one reason why you are seeing such tremendous 
results.
    Could you comment briefly on how you have been able to do 
that and if there are any particular pointers that you can give 
us? How can we replicate that under other communities? Also, if 
you are familiar with one program in the Atlanta area we are 
working with Justice on, the PACT Program, Pulling America's 
Communities Together, and some of the grant money that has been 
available through that to do on a smaller scale?
    I think some of what you are doing here, stressing the need 
to develop computer software, data collection, and analysis 
techniques so that we can better target. Could you give us some 
pointers on how you have been able to do that and the 
importance of coordinating that effort among different 
jurisdictions?
    Mr. Giuliani. Probably the thing that I could say most 
relevant to that is to describe very briefly the COMSTAT 
Program. The COMSTAT Program is a program that the police 
department started 5 years ago.
    It won the award last year from the Kennedy School as the 
most innovative program in government. It is an information 
gathering computer program of massive proportions.
    I guess to simplify it, what it does is every single day 
statistics are gathered from the 77 police precincts of the 
city on every conceivable kind of crime. Statistics are 
gathered on civilian complaints. Statistics are gathered on 
complaints by the community about the conduct of the police and 
about corruption that might be charged against police officers. 
So, it is a complete management tool.
    It is reviewed on a weekly basis by the leadership of the 
police department and on a weekly basis by me. Then the police 
commanders are brought in on a regular basis in a room that 
looks like the room at the Pentagon with big maps of the city 
and maps of their community.
    What they try to do is to focus on where the crime problems 
are emerging and how they should move around their resources. 
Police commanders are expected to have a strategy for how they 
deal with it.
    They are also expected to have a strategy for how they deal 
with some of the problems that might arise in policing, 
including civilian complaints. Ultimately, what that allows you 
to do is to manage your police department to reduce crime, 
instead of manage your police department just to arrest people.
    So, if during those meetings which take place twice a week, 
every day of the year, so they are on a rotating basis. A 
police commander would be back there four or five times a year. 
Basically, you can look at an area of the city.
    We have a map up there. Let us say this is what would 
happen at the COMSTAT meeting. They would notice that there was 
all of a sudden an increase of car thefts in this area. There 
were 20 percent more car thefts going on for 2 months in this 
area in the Bronx. The COMSTAT process would review that. The 
police commanders would be expected to add additional police 
officers to focus on that and reduce that problem before it 
became a long-term problem.
    Suppose we have gang violence in the lower part of 
Manhattan or in areas of Brooklyn or Queens, the same thing. We 
expect them to address that immediately. So, that is the core 
of the program.
    When you have these meetings for a year, 2 years, or 3 
years, that is why I could say to you before that when we did 
the first drug initiative, we did it in the part of the city 
that had something like 19 percent of the population, but 29 
percent of the crime.
    That part of the city was exporting more crimes to other 
parts of the city. In other words, we were picking up people 
who came from that area who were committing crimes in other 
parts of Brooklyn, committing crimes in Manhattan, committing 
crimes in the Bronx.
    So, it made sense to do the first drug initiative there. 
Having done it there, we ended up with double the overall rate 
of crime decline in that area of the city than in the city in 
general.
    Since then, we have moved out to 11 other areas of the city 
of New York. It is a very, very information, data-intense 
computer program. I would invite you, the subcommittee members, 
if you would like to come to a meeting. The Vice President has 
been there. A number of other public officials have been there.
    It is an excellent program. It can be replicated with a lot 
of changes, depending on policing, the interrelationship 
between police, and problems in different communities. It can 
be replicated anywhere.
    It is being replicated now in a number of communities in 
the United States and overseas. I would invite you to come and 
see it. I really cannot do it justice in just describing it 
generally.
    You have to sit through the 1 hour, 1\1/2\ hour program. 
Immediately, you will see what the concept is and why it works.
    Mr. Barr. Thank you.
    Mr. Mica. I thank the gentleman from Georgia.
    Mr. Towns, you are recognized.
    Mr. Towns. Thank you very much, Mr. Chairman.
    Let me begin by a question I think was asked by our 
chairman. I did not quite get the answer. If you answered it, I 
probably missed it. So, I will not say you did not answer it.
    I did not get the answer. I think the chairman asked your 
position on the Needle Exchange Program. I did not hear your 
answer.
    Mr. Giuliani. My position on the Needle Exchange Program is 
that we have it in the city of New York. It is done under State 
law, State authorization with Federal funding. I honestly do 
not know if it works.
    It concerns me greatly. It concerns me because I understand 
the purpose of it. The purpose of it is to avoid the spread of 
HIV-AIDS and try and reduce that method of spreading that 
terrible disease.
    On the other hand, it concerns me because what we should be 
about is convincing people not to use drugs, not facilitating 
them in the use of drugs.
    I have to say that in the areas that have the clinics, 
although people anticipated this, including me, that it might 
have an impact on higher levels of crime, there are lower 
levels of crime now than when the clinics began, and 
significantly lower levels of crime.
    Now, whether that is in any way a reflection of the clinics 
or it is a reflection of the overall reduction in crime that is 
going on, I cannot tell you. From a practical point of view, I 
understand the need for them.
    From a philosophical point of view, they continue to 
concern me because I worry about underscoring or helping people 
use drugs and not trying to deal with those people by trying to 
get them into drug-free programs. Ultimately, there is nothing 
the city can do about it.
    It is authorized. All of those programs are permitted by 
and licensed by the State Board of Health. They have Federal 
funding for them. I cannot tell you that they have caused any 
significant problems.
    The people in the communities that have them do not like 
them. They worry about them, but there is no additional--I knew 
I would be asked the question. I tried to get all of the 
statistics out on crime in those areas. Crime has gone down in 
the areas in which the clinics are located. That could be for 
different reasons.
    Mr. Towns. In the other part, from the health standpoint in 
terms of hepatitis, and in terms of AIDS in particular.
    Mr. Giuliani. I think there is no question that depending 
on the report that you read, and I have read maybe six or seven 
different reports, five or six that say they are very useful 
and very helpful in the sense of the health-related things that 
you are talking about.
    I get one or two that say they are exaggerated in that 
direction. In any event, I think from that point of view, yes. 
It probably is helpful in reducing the spread of diseases.
    There is a different concern that I have which is I am 
uncomfortable with the idea of the State being involved in 
giving you a hypodermic needle to facilitate your remaining 
dependent on heroin. I would rather see those programs put at 
least some emphasis on trying to move the people who want to 
utilize the program into drug-free treatment programs so we can 
give them a chance to lead a decent life and a life free of 
drugs.
    Mr. Towns. Thank you.
    You know, I think that you have sort of moved to my next 
question. I think that is a real problem with our treatment in 
terms of our approach to dealing with the drug problem. I think 
it is really not coordinated.
    I think that is the problem. I will give an example, when 
you talk about opening a drug treatment facility of any type in 
any community, I mean of course the community is up in arms.
    I understand that and rightfully so because of problems 
around it. I think that what we have created we can deal with 
it. Most clinics in every hospital close at 4 p.m.; almost 
every clinic. At 4 p.m., it closes down.
    Why not at 5 p.m., it opens up to treat addicts, even in 
the Methadone Program, whatever it is? You can have all of the 
support systems there in terms of the backup of the hospital.
    You can have the police, the guards, everybody is there. 
The lights are already on. The telephones are already in there. 
So, all of this is there. So, you cut down on the tremendous 
amount of cost because you do not have to go out there and 
build a facility. You do not have to go out there and fight 
with a community to be able to get them to accept the facility, 
and you waste all of the money, the time, and the energy in 
that.
    Even in the Needle Exchange Program, they could work toward 
counseling patients to come off of whatever they are on and to 
encourage them to go into a certain type of program based on 
the assessment of that person.
    I think that we need to be concerned about the type of 
program that a person goes on. I think some people would fit 
better in one type of program than they will another. So, I 
think the coordination of it has not been there.
    The other part is that an idle mind is the devil's 
workshop. If you have a person that comes off of drugs, and he 
or she cannot get a job, then I think it enhances their chances 
of going back on whatever they were on.
    So, I think that if we have a hospital or other facilities 
that are working along with this particular program, then I 
think they could move them into jobs, do all kinds of things to 
be able to help them to stay away from drugs.
    I just do not feel that it is coordinated. I mean from the 
moment a person goes to be detoxified as to what happens to 
them in terms of the next steps. So, even the Methadone 
Program, I do not think the coordination is there because of 
the fact that if a person is on methadone, who is working with 
them to move them to the next step?
    So, I just think that the coordination--I think we are 
spending a lot of money. I think that the money is being 
wasted. If we have a facility that we can use after 4 p.m., why 
go build one?
    Mr. Giuliani. Mr. Towns, I agree with you completely. I 
think that there is a lack of coordination. There is a lack of 
specific purpose. There is a lack of really having thought 
through how can you really help somebody?
    Then unfortunately, in many of these areas these things 
become businesses. There is a methadone business. You make a 
lot of money for doing this. You get lots of Federal matching 
money.
    Therefore, the more people that you can be giving the drug 
to as quickly as you can give it to them, the more money you 
are going to make. You will even see hospitals that have 
clinics.
    They have already projected how much money they are going 
to make on their clinic based on Federal and State matching 
dollars. So, what I would like to see happen and what I am 
trying to do, and I am trying to get the State to turn drug 
treatment from the State over to the city, is to put the 
maximum amount of emphasis, not every dollar, but reverse the 
percentages on putting people in drug-free treatment programs 
where people work as a part of the drug therapy.
    Good programs require work as a part of the drug therapy. 
They require that as soon as the person is detoxified, and as 
soon as the person is stabilized, then they should have a job. 
They should be working.
    Their drug treatment should be coordinated with their being 
a part of the work force and developing a work discipline. If 
you can do both, get them off drugs and develop a work ethic 
and a work discipline in the person, we are going to give them 
the best defense to leading a drug-free life.
    That is what we are trying to do. The obstacles in terms of 
State and Federal mandates, all of the money moves. The money 
basically moves toward the quickest, easiest form of drug 
treatment that can bring in the most dollars, as opposed to 
understanding the drug treatment.
    It is very difficult. It is very intense. It requires 
asking a lot of the person addicted to drugs in a lot of the 
programs. That is where we should be putting our emphasis. Then 
we are going to have the maximum number of people free of drugs 
rather than people continue to be dependent, which is a shame. 
It really is a shame.
    Mr. Towns. Mr. Chairman, I know my time has expired, but 
can I ask one more question?
    Mr. Mica. We are running close, but go right ahead, Mr. 
Towns.
    Mr. Towns. I will try to make it short.
    We will have law enforcement officers, people involved in 
interdiction of drugs come before us. They will make a case. We 
will learn that the criminals have better resources than they 
have. By the time they finish, they almost make you want to 
cry.
    During peace time, how do you feel about the military being 
involved in the interdiction process? If their boats are faster 
than our boats, and their planes are faster than our planes, I 
mean, you know at least their planes are not faster than our 
military planes. They are not faster than our ships.
    Mr. Giuliani. I do not see any reason why the military 
should not be involved in drug interdiction that is taking 
place beyond the borders of the United States or even close to 
the borders of the United States.
    Obviously, the line should be a very strict one. The 
military should not be involved in any form of internal law 
enforcement, at least not in this kind of area. That would be a 
terrible mistake.
    Beyond the borders of the United States it is perfectly 
appropriate for the military to be involved. When I used to be 
involved in that kind of work as Associate Attorney General, I 
was constantly encouraging more military involvement, more of 
their resources being used for this purpose.
    I think, obviously, it is very, very good from the point of 
view of drug interdiction. They do have sophisticated 
equipment. They have trained personnel. At times the Defense 
Department would disagree with me when I would make this 
argument.
    I also think it is good for them. I think it keeps them 
trained. It helps them. It assists them in a lot of their 
training functions as well.
    Mr. Towns. Thank you very much.
    Thank you very much, Mr. Chairman.
    Mr. Giuliani. I was corrected on one thing by my very, very 
capable staff, which is the reason why we were able to do this. 
That is that the Needle Exchange Program is funded by the State 
of New York. There are no Federal funds. There are no city 
funds for it. It is all State-funded.
    Mr. Mica. Mr. Mayor, I noticed that also. I did not say 
something because I knew your staff would correct you before I 
had the chance to.
    I have agreed to an additional question from the ranking 
member.
    Mrs. Mink. I will try to be very brief, Mr. Chairman.
    Mr. Mica. Thank you, Mrs. Mink.
    Mrs. Mink. I will send my other questions for the record.
    Thank you, Mr. Mayor.
    One of the discussions that I have had with others concerns 
your statements last summer having to do with the Methadone 
Treatment Program.
    Your description in your testimony today that this program 
is a mere substitution of one addiction for another. Therefore, 
you wanted to see a phase down of this program, and certainly 
no linkages in establishing the program for eligibility for 
Federal funding.
    I have received from my staff an NIH report of people who 
have researched this whole issue who feel very strongly that it 
is a supportable treatment program and should be continued.
    My question, however, does not go to the medical evidence 
which, of course, is relevant. I will ask you to submit what 
medical evidence you have.
    What concerns me is a news article that appeared in the New 
York Times recently which said that, while New York City has 
36,000 heroin addicts, only 6 percent are currently able to be 
treated under your program in the city hospitals.
    I wanted your comment on that. What other efforts your 
administration is embarking in order to provide services and 
treatment in this drug-free context in which you are pursuing 
for the other remaining 30,000 addicts who, under the Methadone 
Program, are voluntarily admitting to their illness or 
addiction, and coming to the government, and to various 
agencies for some relief so that they can have a reasonable 
expectation of returning to a useful life; one free of 
addiction?
    My concern is that however good the intentions might be to 
pursue a drug-free, non-addictive type program that there 
really is not much evidence of a capability to pursue that. 
Therefore, a much more balanced approach toward your view of 
methadone is really required.
    Mr. Giuliani. Well, first of all, I should explain to you 
that New York City does not do drug treatment. The State does. 
As a part of the arrangement between the city and State, the 
responsibility for drug treatment is overwhelmingly a State 
responsibility. So, when you look at the small number of slots, 
those happen to be the small number that we supply at the city 
hospitals. The overwhelming amount of drug treatment that is 
done in the city of New York is done by the New York State 
Department of Health.
    Mrs. Mink. But they are in city hospitals.
    Mr. Giuliani. But that is the contribution that we are 
making. The city of New York does not handle drug treatment. We 
have city hospitals. So, we make those positions available.
    Overall, the jurisdiction for drug treatment is the State 
of New York. Roughly, they spend about $155 million to $160 
million a year on drug treatment; largely their funds. Some of 
it is State funds.
    Unfortunately, the State, which is the one that does drug 
treatment, and we have a tremendous number of drug treatment 
slots. When you just look at the city hospitals, you are 
looking at a small contribution to it.
    The overwhelming amount of money and positions are spent on 
methadone rather than on drug treatment. What I am proposing is 
reversing the percentages. I am not saying cut out Methadone 
Maintenance Programs.
    Although, it would be ideal if at some point we could. What 
I am saying is we should not have 70 percent of the slots be 
for maintaining somebody on chemical dependency and 30 percent 
being for drug-free programs.
    I have asked that the State give those programs to the city 
so that the city could run them and then we could reverse the 
percentages.
    We could have 70 percent of the people in drug-free slots 
and 30 percent in the Methadone Programs, which are maintenance 
programs. So, I think my position is a little more complicated 
than maybe was described in the New York Times.
    Mrs. Mink. Of the 2,000 that you do have in the city 
hospitals under this treatment program, what is the success 
rate of actually getting these addicts off of drugs all 
together?
    Mr. Giuliani. I cannot tell you just individually what it 
would be for the city hospitals because they do not end up 
getting measured that way. The city hospitals are a part of 
35,000 or 40,000 drug slots. They are just a small portion of 
it.
    The success rates of the drug-free programs that are long-
term treatment programs, 50 percent, 60 percent. I mean they 
are pretty good. They are good rates of success, but they 
require long-term commitment to treatment; 2 years, 3 years.
    They require things like work therapy. They are intense 
efforts. They are harder to do. So, any bureaucracy, whether it 
is the city, the State, or the Federal Government, if you 
confront it with two things that it can do, one of which is 
very hard and one of which is very easy, but it can give you a 
lot of money, all of a sudden your priorities are going to get 
distorted.
    The thing that is going to happen over and over again is 
the thing that is very easy and it gets you a lot of money. 
That is the unfortunate part of what we do with methadone. It 
is easy. It brings a lot of money.
    Whatever the help benefits of it, there is not a single 
thing in any of that literature you have that does not say the 
following: that it is addictive. You must remain on it for the 
rest of your life.
    There are people who are strongly committed to methadone 
because it is an industry. They make a tremendous amount of 
money from it; millions, and millions, and millions of dollars.
    If you were to require them to do what the Phoenix House 
does or what Detox Village does, which is a 2 year drug 
treatment program, they would not be getting the money. 
Somebody else would be getting the money and the work is much, 
much harder.
    So, a part of the policy direction that the Federal 
Government should be not to eliminate methadone, but to try to 
move more of the percentage of dollars and funding to the more 
difficult programs that give people a better chance of leading 
an independent life than having them addicted to a chemical 
substance for the rest of their lives. That is the point that I 
am now trying to make.
    Do not wipe one out, but see if you can move the 
percentages toward a much more life-affirming form of therapy.
    Mrs. Mink. Thank you, Mr. Mayor.
    Mr. Chairman, I ask unanimous consent that the news 
article, plus the NIH report that I referred to be admitted to 
the record at this time.
    Mr. Mica. Without objection; so ordered.
    Mrs. Mink. Thank you, Mr. Chairman.
    Mr. Mica. Mr. Mayor, we want to thank you for being 
generous with your time this morning.
    Mr. Giuliani. Thank you.
    This was very, very instructive. I wish you would take up 
the invitation to come to the COMSTAT Program. I think you will 
find it very interesting.
    Mr. Mica. We would like to take you up on that invitation, 
but we thank you for your leadership, for your insight into 
some of the successes you have had, and also for your candid 
responses to some of the problems that you have experienced.
    We also look forward to hearing from you. We are 
particularly interested in Federal programs that affect our 
cities and States, and how we can do a better job in working 
and coordinating our efforts with you.
    There being no further business to come before this 
subcommittee this morning, this meeting is adjourned.
    [Whereupon, at 11:05 a.m., the subcommittee was adjourned.]


</pre></body></html>
